                                             SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENER AL
                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               OFFICE OF INSPECTIONS

                               Compliance Follow-up Review of the
                               Bureau of Overseas Buildings Operations


                               Report Number ISP-C-11-26, May 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED




      PURPOSE, SCOPE, AND METHODOLOGY
     OF THE COMPLIANCE FOLLOW-UP REVIEW

This compliance follow-up review (CFR) was conducted in accordance with the
Quality Standards for Inspections, as issued by the President’s Council on Integrity
and Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector
General for the U.S. Department of State (Department) and the Broadcasting Board
of Governors (BBG).

PURPOSE AND SCOPE
The Office of Inspections provides the Secretary of State, the Chairman of the BBG,
and Congress with systematic and independent evaluations of the operations of the
Department and the BBG. CFRs cover three broad areas, consistent with Section 209
of the Foreign Service Act of 1980:

 • Policy Implementation: whether policy goals and objectives are being effectively
   achieved; whether U.S. interests are being accurately and effectively repre-
   sented; and whether all elements of an office or mission are being adequately
   coordinated.
 • Resource Management: whether resources are being used and managed with
   maximum efficiency, effectiveness, and economy and whether financial transac-
   tions and accounts are properly conducted, maintained, and reported.
 • Management Controls: whether the administration of activities and operations
   meets the requirements of applicable laws and regulations; whether internal
   management controls have been instituted to ensure quality of performance and
   reduce the likelihood of mismanagement; whether instance of fraud, waste, or
   abuse exist; and whether adequate steps for detection, correction, and prevention
   have been taken.

The Office of Inspections may perform on-site CFRs to verify whether agreed-upon
corrective actions for recommendations issued in previous reports were fully and prop-
erly implemented and to provide OIG with a quality assurance assessment of its work.


METHODOLOGY
In conducting this compliance follow-up review, the inspectors have: 1) reviewed
the previous inspection report and the reported corrective actions; compiled and
analyzed the results to measure and report changes in the period between the previous
inspection and this CFR; 2) conducted on-site interviews and reviewed and collected
documentation to substantiate reported corrective actions; 3) addressed new, significant
deficiencies or vulnerabilities identified during the course of the on-site CFR and, where
appropriate, issued new recommendations; and, 4) discussed the substance of the draft
CFR report substance of the draft CFR report at the final meeting with the head of the
inspected bureau.




          SENSITIVE BUT UNCLASSIFIED
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                      SENSITIVE BUT UNCLASSIFIED



                                  TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
BACKGROUND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
SECURITY STANDARDS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ENVIRONMENTAL PROTECTION FOR NEW EMBASSIES . . . . . . . . . . . . . . . . . . . . 4
CONSTRUCTION ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
FACILITIES MAINTENANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
INTERNAL REVIEW AND OPERATIONS RESEARCH . . . . . . . . . . . . . . . . . . . . . . . . 9
INFORMATION RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
  Systems Inventory . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
EVALUATION OF COMPLIANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
FORMAL COMPLIANCE FOLLOW-UP REVIEW RECOMMENDATIONS . . . . . . . . 14
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15
APPENDIX I – STATUS OF 2008 INSPECTION FORMAL
RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
APPENDIX II – STATUS OF 2008 INSPECTION INFORMAL
RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47




         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011           iv


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




v   OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                 SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



KEY JUDGMENTS

•	 The Bureau of Overseas Buildings Operations (OBO) was substantially in
   compliance with the recommendations in the Office of Inspector General’s
   (OIG) August 2008 report, Inspection of the Bureau of Overseas Buildings
   Operations.

•	 Internal reorganization and changes in senior leadership have improved interac-
   tions between OBO and Department of State (Department) entities and other
   agencies. The acting director conducts monthly program performance reviews
   which are useful and well attended.

•	 The Bureau of Consular Affairs (CA) was not satisfied with consular section
   configurations in a few new embassy compounds. More regular meetings
   between CA and OBO to discuss and resolve issues prior to the beginning of
   construction projects would help avoid this problem in the future.

The maintenance of bigger and increasingly more sophisticated office buildings
and residential properties is a challenge because there has been insufficient funding
for materials and staff. At the time of the compliance follow-up review (CFR), the
Department was considering proposing to the Office of Management and Budget
(OMB) that a portion of funds collected under the Capital Security Cost Sharing
Program be set aside for maintenance. According to OBO, OMB accepted the
proposal and the proposed FY 2012 budget includes a portion of funds as mainte-
nance cost sharing.

•	 The Department’s bureaus work with OBO during the entire construction
   process, from the design phase to move-in. However, rightsizing analyses and
   reports and the National Security Decision Directive-38 process have not been
   effective in controlling staffing increases that occur before move-in. Hence, some
   new facilities are overcrowded when they open.

•	 The internal review office’s workload is insufficient and uneven; consequently, its
   staff is not always fully employed.

The CFR took place in Washington, DC, between September 20 and November 20,
2010. (b) (6)




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   1


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    BACKGROUND

    As part of its goal to place embassy employees in safe, secure, and functional facili-
    ties, OBO completed more than 60 new embassy compounds and annex office
    buildings between 2001 and 2008. OBO used, and continues to use, a design-build
    concept for construction that originated from a standard embassy design for small,
    medium, and large embassies. This construction blue-print has many standard
    features and contractors build to that design. Congressional funding for new
    construction has remained steady at $1.4 billion.

    Since 2008, OBO’s pace of building has slowed somewhat, as new embassies, consul-
    ates, and annex projects experience cost growth from design adjustments, more
    sophisticated security features, and rising prices for materials and land. Although
    OBO still frequently uses the standard embassy design, it also uses designs that
    architectural and engineering firms provide through contracts. The projects, funded
    by the Capital Cost Sharing Program, are developed according to the priorities
    identified in the Department’s list of the top 80 (b) (5)                    . These are
    the locations where new embassy or other construction will likely occur within the
    next 10–13 years.

    The purpose of this CFR was to ascertain whether OBO had implemented recom-
    mendations from the 2008 OIG inspection report. There have been many organi-
    zational changes in OBO since the 2008 inspection. The acting director has been
    in place for approximately 1.5 years. There is now an executive office and a deputy
    director. The mission and reporting relationships of several OBO directorates and
    their subordinate offices have also changed. Some of these changes were in response
    to the recommendations in the 2008 report; others were implemented by the director
    ad interim and the present acting director. Within OBO and among Department
    bureaus and non-Department agencies that work with OBO, there is a general
    consensus that OBO is now better at sharing information, working with other enti-
    ties in the U.S. Government, and soliciting more input from midlevel staff.




2         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



SECURITY STANDARDS

The rising cost of implementing security standards is one of several factors contrib-
uting to the overall increase in construction costs. More guidance from the Under
Secretary for Management could help with decisions regarding trade-offs between
cost and security standards. The Bureau of Diplomatic Security (DS) and the
Overseas Security Policy Board’s (OSPB) standards are requirements that are not
usually negotiable.

New chanceries that are safe, secure, and functional include security best practices
in their design and infrastructure. The projects that use standard embassy and other
design criteria integrate OSPB standards and DS guidance into the operational,
procedural, and staff security requirements of individual missions. New initiatives
to meet the vision of future embassies include risk assessments to ensure that lessons
learned in earlier construction efforts are not forgotten. At the same time, security
best practices are constantly reviewed against escalating threats and the benefits of
new technology designed to counter these threats.

As a result of the 2007 Center for Strategic and International Studies’ report, The
Embassy of the Future, in 2009 OBO and DS developed a physical security standards
matrix that documents security best practices for various diplomatic platforms. These
platforms are American Centers, American Presence Posts, Bi-National Centers and
American Corners. The matrix also identifies standards for each category of threat,
addresses appropriate security countermeasures, and clarifies expectations for each
platform based upon the threat standards categorized in the Security Environmental
Threat List. Security standards justifiably change as threats posed to the official
American presence overseas change. The matrix, a constantly evolving document,
can be used as a baseline for developing future standards.

DS and OBO need to agree on how to interpret OSPB security requirements. For
example, at the working level, it is necessary for staff to agree on how standards
concerning protection from blasts can be achieved with a combination of appropriate,
but not redundant, levels of wall strength and setback




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   3


                   SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



    ENVIRONMENTAL PROTECTION
    FOR NEW EMBASSIES

    DS and OBO jointly develop environmental security design guidelines for new
    embassies. A National Research Council of the National Academies for Science
    and Engineering report1 on protecting buildings against chemical/biological threats
    endorsed OBO’s design methodology, and the 2008 OIG inspection team identified
    the need to address environmental security in OSPB security standards in the Foreign
    Affairs Handbook (12 FAH-6).

    In September 2008, DS was working to have OSPB validate the environmental secu-
    rity protection requirements for new embassy compounds as OSPB standards and to
    include them in 12 FAH-6. OBO and DS would then develop operating procedures
    to include the appropriate Foreign Affairs Manual (FAM) regulations. OSPB estab-
    lished an environmental security working group that completed a draft of 12 FAH-6
    and routed it for clearance. In August 2009, the working group met to approve final
    changes to the 12 FAH-6 draft language and forwarded it to the Department for
    final clearances.

    The 12 FAH-6 Security Protection Systems standard was cleared by the Department
    and submitted to OSPB for approval on October 13, 2010. Information that OBO
    provided in March 2011 indicates these standards were incorporated into 12 FAH-6
    H-810 as of February 9, 2011.




    1	
       National Research Council, Protecting Building Occupants and Operations for Biological and Chemical Airborne
    Threats, June 2007.



4           OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                         SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



CONSTRUCTION ISSUES

OBO has reduced the number of meetings that were previously held to those pertain-
ing to construction issues. For example, OBO meets quarterly with regional bureaus,
CA, and other organizations. There is also a monthly meeting with OBO’s divi-
sion directors and branch chiefs to coordinate projects. The front office maintains
responsibility for coordinating some meetings, and the Office of Area Management
serves as the interlocutor for facilitating meetings that affect a broader community of
offices and agencies. Whereas program performance reviews provide an opportunity
for communicating on more general issues, quarterly meetings with bureaus provide
a more targeted approach for OBO to understand and respond to specific needs and
desired changes.

There are specific requirements codified in the FAM, FAH, and other laws and
regulations that the Department uses for construction requirements and other
imperatives. Input from regional and functional bureaus usually resolves major issues
about how to implement those requirements. CA believes that there is a requirement
that consular officers have line-of-sight supervision of consular cashiers. However,
after a thorough search of FAM and FAH regulations, the OIG CFR team did not
find a requirement for line-of-sight supervision for cashiers, only for visa and passport
processing.

The OIG CFR team also noted that more and more fees are paid at banks and has
specifically observed that Class B cashiers at embassies are not subject to visual super-
vision. OBO suggested that CA use cameras, in lieu of windows, to afford visual
supervision of cashiers. This strategy would also facilitate line-of-sight supervision in
existing buildings without requiring renovations. CA has disagreed with the sugges-
tion about using cameras but has offered no further comment.


    CFR RECOMMENDATION 1: The Bureau of Consular Affairs should
    determine the requirement for line-of-sight supervision for consular cashiers
    and incorporate it into the appropriate Foreign Affairs Manual and Foreign
    Affairs Handbook regulations. (Action: CA)


OIG’s overseas inspections often report problems with consular waiting rooms, the
ratio of sanitary facilities for consular customers, the configuration of interview
windows, and other structural and design issues. During the CFR, the OIG team
heard the same complaints. OBO’s guidance, Department cable, The New Embassy
Compound Process and Post’s Role (State 136039, dated September 2007), states


      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   5


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    that representatives from the regional and functional bureaus, the post, and other
    U. S. Government agencies will be invited to participate in an integrated planning
    workshop that develops initial diagrams and preliminary drawings. However, the
    OIG CFR team heard that this guidance is not always followed. Instead, according
    to CA, OBO shows its customers the design at 35 percent completion. At that point,
    it is too late to make major changes. Clearly, more standards and requirements need
    to be defined and included in the FAH and FAM, and those design requirements
    that cannot be easily codified should be discussed and resolved earlier in the design
    process.

    According to CA and OBO, there is a working group that meets regularly to discuss
    CA issues. Although invited, representatives from DS seldom attend. The solutions
    the working group develops are not necessarily broadly applied; instead, they tend
    to respond to the needs of individual projects. In some ways, this is useful, as differ-
    ent workloads in consular sections yield different requirements. At the same time,
    however, any broad guidelines generated from these meetings could be relevant to
    more projects.


        CFR RECOMMENDATION 2: The Bureau of Consular Affairs, in coor-
        dination with the Bureau of Overseas Buildings Operations, should imple-
        ment procedures to discuss and resolve design issues before the Bureau of
        Administration’s Office of Acquisitions announces the Department of State’s
        intent to construct a new embassy or complete a major renovation. (Action:
        CA, in coordination with OBO)




        CFR RECOMMENDATION 3: The Bureau of Consular Affairs should
        develop and provide to the Bureau of Overseas Buildings Operations a set of
        written standard requirements for consular section designs that the Bureau of
        Overseas Buildings Operations can use at the beginning of construction and
        rehabilitation projects. (Action: CA)


    OBO has instituted a more integrated methodology to incorporate comments and
    suggestions into changes to the Capital Security Cost Sharing Program. As a result,
    there are more partnerships between OBO and its clients, post occupancy evaluation
    information is considered, and standard change requests are being directed to the
    Office of Design and Engineering. Post occupancy evaluations now go directly to the
    Area Management Division, where the information is compiled and forwarded to the
    Lessons Learned Committee group in the Office of Design and Engineering.



6         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



OBO’s look-back analysis of operational concerns that surface after occupancy,
its quarterly meetings with regional and functional area executive offices, and the
annual Interagency Facilities Board meetings bring issues to the fore. The OIG
CFR team notes, however, that the design changes resulting from post occupancy
issues forwarded for lessons learned and look-back analysis may not be apparent in
new embassies for 3 to 5 years because new designs are not implemented until new
embassy projects with amended designs are completed.

Regional bureaus commented that new buildings are often too small even before they
are first occupied. The OIG CFR team found that OBO depends entirely on staff-
ing estimates provided by regional bureaus and the Office of Management Policy,
Rightsizing, and Innovation (M/PRI). The National Security Decision Directive-38
process, however, is not subordinate to the rightsizing process, and regional bureaus
often support chiefs of mission as they expand programming and staff increases,
regardless of the original staffing estimates provided to OBO. Staffing levels can
thus increase during the period between initial project design and construction
completion.

Because of construction costs, OBO builds only an extra 10 percent of growth
capability into its new buildings. To offset this limitation, OBO is trying to build
flexible interiors that can absorb unexpected growth by allowing for smaller, individ-
ual workspaces. OBO also seeks additional funding to make expensive, last-minute
changes to projects already under construction. For example, OBO expanded the
chancery at Addis Ababa, Ethiopia, when a non-Department agency with large staff
growth provided supplemental funding.




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   7


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    FACILITIES MAINTENANCE

    OBO’s resources for maintenance activities and training are inadequate. OBO
    requested $618 million for FY 2012, a huge increase from the $150 million allocation in
    FY 2011. One regional bureau highlighted the results of maintenance budget shortfalls
    when a major rehabilitation project was forestalled and, as a consequence, some posts
    could not acquire urgently needed spare parts. The $150 million budget was so low
    that, at the time of the CFR, the Department was considering proposing to OMB,
    setting aside a portion of funding for new construction that it wished to reprogram for
    maintenance needs. OMB accepted the Department’s reprogramming proposal and it is
    part of the proposed FY 2012 budget as maintenance cost sharing. The OIG CFR team
    notes that the sum that will be reprogrammed has not yet been identified.

    Recognizing the huge challenge that maintenance requirements present, OBO
    developed a long-range action plan to identify maintenance and repair needs. In
    2010, OBO hired 20 facilities managers and enrolled them in training at the Foreign
    Service Institute (FSI). Upon completion of this program, these facilities managers
    will, in turn, train their locally employed (LE) staff at missions overseas. OBO also
    established a quick response team, staffed by contractors based in Washington, DC,
    that addresses urgent maintenance issues and conducts additional training at posts.

    In spite of these efforts, there remains a worldwide shortage of facility managers.
    OBO is filling this gap with when-actually-employed staff and personal services
    contractors. OBO was also considering how to fund an additional quick response
    maintenance team dedicated to posts in a particular region, similar to the one in
    Africa. Meanwhile, in addition to facilities manager shortages abroad, OBO’s Office
    of Facility Management in Washington, DC, is short by about 25 staff members.
    This office is working with human resources to fill positions, but progress is slow.

    FSI has developed a strong training program and has increased the number of facili-
    ties manager classes from two to three annually. Unfortunately, however, in FY 2010,
    OBO had to delay facilities manager hiring for several months because FSI could not
    accommodate them in existing training programs.

    FSI also conducted two U.S.-based maintenance training sessions, which accom-
    modated a total of 24 LE staff members. However, this reflects only a small number
    of staff members who need this training. Managers at FSI indicated that the train-
    ing facility does not have the resources to increase the enrollment of either facilities
    managers or LE staff members in its domestic training programs. FSI could conduct
    distance learning for LE maintenance staff if OBO were to provide assistance with
    curriculum development and LE staff enrollees were to have sufficient familiarity
    with English.

8         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



INTERNAL REVIEW AND
OPERATIONS RESEARCH

In the past, the Internal Review and Operations Research Office (IROR) staff
reported directly to a previous OBO director and provided assessments of OBO’s
programs, operations, and personnel issues. However, OBO determined that some
of IROR’s reports contained inaccuracies and unsupported recommendations which
ultimately resulted in the withdrawal of IROR’s recommendations. OBO’s staff also
expressed frustration with IROR’s operations, characterizing them as secretive and
not balanced.

As noted in OIG’s 2008 inspection of OBO, IROR’s mission and operations were
not transparent, and IROR did not have a mission statement, formal operating
procedures, or a formal training program. The 2008 inspection report made two
recommendations to address these issues. Both recommendations were closed during
the compliance process.

IROR is now known as the internal review (IR) group. OBO has since moved the
IR function from the director’s office to the Office of Policy and Program Analysis
in the Directorate of Resource Management and has also developed a mission state-
ment and formal operating procedures for IR. Although some of the formal operating
procedures are duplicates of responsibilities assigned to auditors, investigators, and
evaluators working in the U.S. Government Accountability Office and the OIG, the
CFR team closed the recommendation nonetheless.

OBO’s response to the 2008 inspection recommendation regarding the need for a
training plan included a lengthy list of courses for IR staff. However, OBO could
not provide any records showing that staff had taken any of the proposed training
courses. The OIG team noted that many of the training courses listed in OBO’s
response were courses at universities, institutes, or other facilities that were not practi-
cal or affordable. OBO agreed with this assessment.

In 2009, IR’s reporting structure was changed and the IR function moved from the
director’s office to the Directorate of Resource Management, Office of Policy and
Program Analysis. Although the IR function was placed within the the Office of
Policy and Program Analysis, it remains a separate unit within this office. According
to OBO and the IR director, the workload in IR is insufficient and uneven; conse-
quently, staff is not always fully employed. The OIG notes that given recent U.S.
Government Accountability Office reviews of OBO’s activities, OBO’s overseas



      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   9


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     financial review program, the OIG’s OBO inspection and this compliance follow-up
     review, the need for internal IR reviews has apparently diminished.

     At the same time, OBO told the OIG CFR team that other analysts in the Office of
     Policy and Program Analysis are sometimes overworked as a result of staffing short-
     ages. To balance the workload more effectively, on occasion, the IR staff has been
     assigned non-internal review work.


        CFR RECOMMENDATION 4: The Bureau of Overseas Buildings
        Operations should abolish the separate internal review function and assign its
        staff members to other Bureau of Overseas Buildings Operations offices in
        order to distribute the workload more equally among all the analysts. (Action:
        OBO)




10         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



INFORMATION RESOURCE
MANAGEMENT

Staff morale within OBO’s information resource management (IRM) division has
improved since the 2008 OIG inspection. The IRM division has gained users’ trust
and is managing the systems development life cycle more effectively. With no need to
handle desktop operations, thanks to the information technology (IT) consolidation,
the IRM division has focused on bureau-specific applications. The division has also
eliminated poor performing contracts, noted in the 2008 OIG inspection report,
and has implemented properly negotiated contracts, managed with the appropriate
oversight. Through the use of SharePoint, workflows are better integrated and there
is now a collaborative environment for knowledge management. The OIG CFR team
determined that the two remaining IRM-related open/resolved recommendations
should be closed.




SYSTEMS INVENTORY
The OIG CFR team noted that there are still discrepancies in the systems applica-
tions inventory that is reported in the larger IT asset baseline inventory and in
internal documentation. The OIG CFR team received contract deliverables that may
be categorized as reportable applications per Department standards. In some cases,
there are specialized, commercial, off-the-shelf products that only a few within OBO
use. However, because the product is not hosted across the OBO domain, it might
not be a reportable application. These types of determinations must be made by IRM
management. The OIG CFR team also learned of an application with outdated secu-
rity controls. In addition, naming conventions for applications varied throughout the
documentation. Modules, which are part of a software suite, were in some instances
reported as separate applications. Maintaining accurate systems inventories would
mitigate the risk of security vulnerabilities.


   CFR RECOMMENDATION 5: The Bureau of Overseas Buildings
   Operations should review and update all systems reported in the information
   technology asset baseline inventory and in internal documentation so that all
   major, minor, and commercial off-the-shelf applications are reported accu-
   rately. (Action: OBO)



      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   11


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     EVALUATION OF COMPLIANCE

     The CFR team found that before the CFR, OBO had complied with all but three
     of the formal recommendations and all of the informal recommendations from the
     2008 inspection. A CFR automatically closes all formal and informal recommenda-
     tions from the inspection, but these may be reopened, revised, and/or reissued by the
     CFR, as appropriate.

     Of the 45 formal recommendations in the 2008 report, 42 were closed before the
     CFR, and 3 were resolved/open. As a result of the CFR, all three resolved/open
     recommendations were closed. The CFR team issued five new recommendations. Of
     the 14 original informal recommendations, all were closed by the CFR.




12         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



EXECUTIVE DIRECTION

The acting director has been leading OBO since 2009. There is wide agreement
among OBO staff and Department regional bureaus that the acting director is an
approachable, knowledgeable, and capable leader. He has continuously reorganized
OBO in order to improve its operations and morale. Many of the internal manage-
ment changes were in response to OIG’s recommendations. To keep current, he
conducts monthly program performance reviews that highlight progress and prob-
lems. He ensures that OBO keeps its focus on functionality in new embassies and
major building rehabilitation and solicits input from bureaus and agencies as early
in the process as possible. Several regional bureaus stressed their appreciation for his
personal attention to their major projects.

The deputy director joined the Department and OBO in 2009. She has been manag-
ing the bureau’s efforts in Afghanistan, Pakistan, and other critical posts and is
leading the bureau-wide effort to develop a design excellence program for OBO.




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   13


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     FORMAL COMPLIANCE FOLLOW-UP
     REVIEW RECOMMENDATIONS

     CFR RECOMMENDATION 1: The Bureau of Consular Affairs should determine
     the requirement for line-of-sight supervision for consular cashiers and incorporate it
     into the appropriate Foreign Affairs Manual and Foreign Affairs Handbook regulations.
     (Action: CA)

     CFR RECOMMENDATION 2: The Bureau of Consular Affairs should meet
     with the Bureau of Overseas Buildings Operations to discuss and resolve design
     issues before the Bureau of Administration’s Office of Acquisitions announces the
     Department of State’s intent to construct a new embassy or complete a major renova-
     tion. (Action: CA, in coordination with OBO)

     CFR RECOMMENDATION 3: The Bureau of Consular Affairs should develop
     and provide to the Bureau of Overseas Buildings Operations a set of written stan-
     dard requirements for consular section designs that the Bureau of Overseas Buildings
     Operations can use at the beginning of construction and rehabilitation projects.
     (Action: CA)

     CFR RECOMMENDATION 4: The Bureau of Overseas Buildings Operations
     should abolish the separate internal review function and assign its staff members
     to other Bureau of Overseas Buildings Operations offices in order to distribute the
     workload more equally among all the analysts. (Action: OBO)

     CFR RECOMMENDATION 5: The Bureau of Overseas Buildings Operations
     should review and update all systems reported in the information technology asset
     baseline inventory and in internal documentation so that all major, minor, and
     commercial off-the-shelf applications are reported accurately. (Action: OBO)




14         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



PRINCIPAL OFFICIALS

Position or Title                                                                           Name

Acting Director                                                                             Adam Namm

Deputy Director                                                                             Lydia Muniz

Executive Assistant                                                                         Nicholas Giacobbe

Deputy Director of Resource Management                                                      Jurg Hochuli

Managing Director of Planning and Real Estate                                               Jay Hicks

Managing Director of Program Development,
Coordination, and Support                                                                   Joseph Toussaint

Managing Director of Construction, Facility,
and Security Management                                                                     Rodney Evans

Managing Director of Operations                                                             Leo Hession




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   15


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     APPENDIX I – STATUS OF
     2008 INSPECTION FORMAL
     RECOMMENDATIONS

     RECOMMENDATION 1: The Bureau of Overseas Buildings Operations should
     establish a mission statement and formal operating procedures for the conduct of
     Internal Review and Operations Research activities. (Action: OBO)

     Recommendation 1 was closed. CFR Recommendation 4 addresses further
     requirements.


     RECOMMENDATION 2: The Bureau of Overseas Buildings Operations should
     provide Internal Review and Operations office personnel with the requisite training
     to perform its oversight function. (Action: OBO)

     Recommendation 2 was closed. CFR Recommendation 4 addresses further
     requirements.


     RECOMMENDATION 3: The Bureau of Overseas Buildings Operations should
     consolidate the office facilities interior design personnel now in the Planning,
     Development and Real Estate Directorate into the Design and Engineering Division
     of the Project Execution Directorate. (Action: OBO)

     Compliance and CFR Findings
     OBO consolidated the office facilities interior designers into a single division
     within the Design and Engineering office in the Directorate of Program Design,
     Coordination, and Support. Portfolios were restructured to allow designers to work
     projects from inception to completion. As a result, there is now more information
     sharing among designers working on common problems at different posts. However,
     the interior design division is not physically reintegrated and some staff members
     are not colocated with their office peers; the same is true of other divisions and
     offices. Although most of the staff is on the 12th floor, where the designers’ libraries
     are located, five designers remain on the 10th floor. The designers on the 10th floor
     have less ready access to the division chief, their colleagues, and the libraries. Filling
     personnel vacancies throughout OBO has exacerbated the colocation objective.


16         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



OBO’s space planners are studying the problem and making changes to the extent
possible.

Recommendation 3 is closed.


RECOMMENDATION 4: The Bureau of Overseas Buildings Operations should
integrate the project-specific planning, development and design functions for capital
construction and major renovations projects under the Office of Project Execution.
(Action: OBO)

Compliance and CFR Findings
OBO examined the planning and programming functions that the Office of
Planning and Real Estate performed, and separated them into programming and
project development. In October 2008, OBO established the Directorate of Program
Coordination, Development, and Support in the Office of Project Development and
Support (formerly the Office of Project Execution). OBO transferred project plan-
ning and development responsibilities for capital construction and major renovations
projects, and associated resources, to the Office of Project Development and Support.
The design function remained in the Office of Design and Engineering in the same
directorate. The OIG CFR team verified that this change clarified responsibilities
belonging to project development and activities related to the request for proposal
(RFP) and that the integration was successful.

Recommendation 4 was closed.


RECOMMENDATION 5: The Bureau of Overseas Buildings Operations should
establish an office of project coordinators to oversee each major construction proj-
ect. These coordinators should have project management expertise and be given the
authority, responsibility, and administrative resources to oversee each project from
planning to commissioning. (Action: OBO)

Compliance and CFR Findings
On October 1, 2009, OBO moved the project coordinator function to the
Project Development and Coordination Division in the Program Development,
Coordination, and Support Directorate. Project coordinators are tasked with provid-
ing a life-cycle view of projects from inception to contract close-out, a responsibility
that they share with project directors in the Office of Construction, Commissioning,
and Maintenance. Beginning in November 2009, monthly, project-based, program
performance reviews demonstrated the effectiveness of aligning the office with the
Department’s regional bureaus.


      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   17


                   SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



     The newly created Office of Project Development and Coordination allows proj-
     ect coordinators to oversee projects from planning to commissioning. The office
     structure includes four regional divisions and an analytical division that supports
     the regional divisions and the front office. OBO proposes to increase the number
     of regional divisions to five in order to mirror the Department’s regional bureau
     structure.

     Recommendation 5 was closed.


     RECOMMENDATION 6: The Bureau of Overseas Buildings Operations should
     conduct a top-to-bottom review of the RFP process for capital projects with the
     goal of producing direct accountability for a streamlined, less complicated and time
     consuming planning stage that results in a timely design-build RFP document that
     contains clear, realistic and non-conflicting guidance to prospective bidders. (Action:
     OBO)

     The RFP process was complicated, producing nearly 6,000 pages of information, and
     there were internal contradictions and inconsistent guidance that bidders could not
     address.

     Compliance and CFR Findings
     A working group reviewed OBO’s capital project acquisition process and suggested
     consolidating resources for development and acquisition functions in a realigned
     Office of Program Coordination and Support, effective October 1, 2008. The group
     recommended changing the acquisition methodology to require more design efforts
     prior to the solicitation. OBO improved the RFP process by consolidating and
     moving resources and responsibilities for project-specific planning to the Directorate
     of Program Development, Coordination, and Support as of October 1, 2008.

     The working group partnered with the Office of Construction Management to
     define project development activities and phases of a project cycle as pre-award,
     execution, and occupancy. These activities are delineated in two reports2 that clarify
     and define the projects and responsibilities of OBO’s directorates and offices and of
     the Office of Logistics Management. The final report includes a number of recom-
     mendations to improve and accelerate the RFP process. The use of bridging docu-
     ments in the design-build acquisition strategy should result in less conflicting guid-
     ance. Despite changes to process, however, construction RFPs are still complicated,


     2
      A Follow-up Report and Perspective on the 2008 Office of Inspector General’s Inspection of the Bureau of
     Overseas Buildings Operations, and the Overseas Buildings Operations Capital Acquisition Process Working Group
     and The Capital Acquisition Process Working Group Findings and Recommendations, Final Report, 19 September
     2008, Overseas Buildings Operations Department of State, also known as the OBO Cate Report, August 2010.



18           OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                          SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



voluminous, and time consuming. OBO continues in its efforts to streamline and
speed the process.

Recommendation 6 was closed.


RECOMMENDATION 7: The Bureau of Overseas Building Operations, in coor-
dination with the Bureau of Diplomatic Security, should document and include the
security best practices into the infrastructure of the embassy of the future. (Action:
OBO, in coordination with DS)

Recommendation 7 was closed.


RECOMMENDATION 8: The Bureau of Overseas Buildings Operations, in coor-
dination with the Bureau of Diplomatic Security, should validate the environmental
protection requirements for new embassy compounds and then codify them onto the
Overseas Security Policy Board (OSPB) security standards. (Action: OBO, in coordi-
nation with DS)

Recommendation 8 was closed.


RECOMMENDATION 9: The Bureau of Overseas Buildings Operations should
streamline the number of internal and external working groups under a single unified
coordinating office to address current and future construction issues. (Action: OBO)


RECOMMENDATION 10: The Bureau of Overseas Buildings Operations should
establish a nimble, time-sensitive process which solicits comments from agencies,
bureaus, and posts; documents short- and long-term suggestions; and expeditiously
incorporates those comments and suggestions into changes and improvements into
the overall Capital Security Construction Program. (Action: OBO)

Recommendations 9 and 10 were closed.


RECOMMENDATION 11: The Bureau of Overseas Buildings Operations should
establish a comprehensive Washington-based program to coordinate, monitor, and
document commissioning activities for all trades and activities associated with a
construction project. (Action: OBO)




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   19


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     The commissioning process was not adequately monitored or documented because
     there were various construction disciplines responsible for inspecting and accepting
     buildings. There were no commissioning tracking and compliance activities. Unless
     life-safety and security requirements were in place, deficiencies were not tracked. A
     December 2007 memorandum, Embassy Capital Security Construction Program
     Building Turnover and Warranty Administration, clarified construction and facilities
     responsibilities related to building turnover and warrantee issues.

     Compliance and CFR findings
     In the past, the commissioning agents were hired by the construction companies and
     thus were not independent. To remedy this, OBO now uses five indefinite delivery-
     indefinite quantity contracts to hire independent commissioning agents as members
     of OBO project teams. The agents participate in projects from the design phase
     through the 35 percent completion submission. Then, during the construction phase,
     they go to sites 6 to 9 months prior to substantial completion and remain on site
     until after occupancy.

     The CFR validated the use of independent commissioning contractors who partici-
     pate in projects from the design phase to occupancy. These agents play advisory,
     oversight, and monitoring roles at the construction site. OBO continues to use the
     private sector to improve commissioning, occupancy, operations, and maintenance
     phases of new construction. Regional bureaus indicated general satisfaction with the
     current commissioning process.

     Recommendation 11 was closed.


     RECOMMENDATION 12: The Bureau of Overseas Buildings Operations should
     establish and enforce a project documentation database that provides essential
     information from planning to commissioning in a readily retrievable format. This
     information should be made accessible to personnel within the Bureau of Overseas
     Buildings Operations and other State Department entities that require the informa-
     tion in a read-only format. Key documentation presently maintained only by the PD
     in the field should also be archived to this database. (Action: OBO)

     Documentation for projects from the planning to commissioning stages was not
     located in a central archive. Instead, each office saved electronic files idiosyncratically
     to several databases and without using a standard naming convention. Some docu-
     mentation was either lost or missing. Only data in the ProjNet system were accessible
     to OBO or other stakeholders.




20         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



Compliance and CFR Findings
To address the problem regarding where project documentation could be stored and
reviewed, OBO worked with a number of systems, including OBOLink for project
artifacts (i.e., technical documents); Building Management Information System
(BMIS) for schedule, property, field reporting, and cost data; ProjNet for design
reviews, construction submittals, requests for information, and procurement docu-
ments; and SharePoint for a single view of all data.


RECOMMENDATION 13: The Bureau of Overseas Buildings Operations should
establish a mandatory outline for a comprehensive Project Director’s project comple-
tion report with an appropriate deadline for completing the report. (Action: OBO)

OBO’s 2009 Construction Alert Notice expanded requirements for final completion
reports and outlined steps to ensure time lines. These requirements were incor-
porated into a Construction and Commissioning Guidebook. OBO also issued the
Administrative Bulletin Project Final Completion Reports (A-2009-01), which outlines
reporting requirements for project deliverables, handover materials, and other project
documentation. OBOLink is the central repository for these reports.

OBO created a mandatory reporting requirement outline and established a due date
for project directors’ project completion reports. OBO is making progress in this
effort. In 2009, the first year the requirement was in effect, 33 percent of the reports
were completed. In 2010, the completion rate rose to 47 percent. OBO expects an
even higher percentage for 2011 as more project directors are informed about the
requirement. OBO continues to monitor the process.

Recommendations 12 and 13 were closed.


RECOMMENDATION 14: The Bureau of Overseas Buildings Operations should
update the 15 FAM 812.2 Fire Inspection requirements to include that posts submit
an annual report of findings for fire inspection. (Action: OBO)

OBO was unable to comply with this requirement for annual fire inspections due to
insufficient funding and staffing.

Compliance and CFR Findings
A review of changes to 15 FAM, in its entirety, and 15 FAM 812.2, specifically,
demonstrates that OBO responded to OIG’s 2008 recommendation. The FAMs state
that when OBO does not conduct a formal, annual inspection and training visit,
posts must conduct a fire inspection survey, using the previous fire inspection report
as the basis. Any technical or operational fire protection issues must be reported. The


      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   21


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     management officer must certify that a fire and life safety inspection was conducted
     and include the results in the Annual Inspection Summary Report 1 year from the date
     of the last OBO fire inspection visit. OBO’s Office of Fire Protection assured the
     OIG CFR team that these inspections are proceeding as required.


     RECOMMENDATION 15: The Bureau of Overseas Buildings Operations should
     perform fire inspections at overseas posts annually using either appropriately trained
     post personnel or headquarters staff. (Action: OBO)

     Compliance and CFR Findings
     OBO agreed to increase the frequency of inspections from every 3 years to every 2
     years and to allow posts to conduct off-year inspections using the latest inspection
     document for an annual survey and report (State 017084, dated 02/24/2009, Change
     to Fire Inspection and Training Program for Posts).

     Posts are conducting inspections during alternate years when the fire protection office
     does not visit, using the last fire inspection report as a basis. Under an expanded
     training program, visiting fire officers provide at-post inspection training for new
     facilities managers and general services officers as well as regional training seminars
     for post occupational safety and health officers. Additionally, management officers
     must certify that a fire and life safety inspection was conducted and report the results
     in the Annual Inspection Summary Report.

     OBO is using the tracking capability of BMIS to remind posts that an annual
     survey is due. OBO’s August 2010 management controls statement indicated that
     it has moved the Fire Protection Division to the Operations Office of the Bureau
     of Overseas Buildings Operations. Thus, commissioning and witnessing of all fire
     protection systems’ testing ensures independent oversight of the fire protection and
     life safety features of the new embassy compound commissioning and acceptance
     process. The OIG CFR team validated that these activities are ongoing.

     Recommendations 14 and 15 were closed.


     RECOMMENDATION 16: The Bureau of Overseas Buildings Operations should
     develop and implement an action plan for how best to provide the training, preven-
     tive maintenance, and service support to posts in areas of the world where such
     support is not available to ensure that the facilities can be operated and maintained as
     intended, using cost sharing principles to the extent possible. (Action: OBO)

     New and more complicated buildings and systems create maintenance and repair
     problems for posts.



22         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



Compliance and CFR Findings
OBO recognizes the challenge of providing high-quality, cost-effective maintenance
services, support, and training and thus is focusing more effort and resources in this
area. However, resources are still insufficient. Posts with new embassy compounds
usually get a facilities manager; however, those that have neither a new building nor
a major renovation may not. Upon arrival at post, facilities managers are expected
to train LE staff. To ensure that facilities managers are adequately trained, OBO
and FSI developed a 15-week facilities manager course. In FY 2010, FSI conducted
two training programs for LE facilities maintenance staff. Approximately 24 people
received this training, but many more still need it.

In September 2008, OBO established the Africa Regional Maintenance Program to
improve facilities maintenance support in the African region.

Recommendation 16 was closed.


RECOMMENDATION 17: The Bureau of Overseas Buildings Operations should
develop and implement a system for accurately identifying the costs of operating and
maintaining new embassy compounds and legacy properties and then budget accord-
ingly. (Action: OBO)

OBO’s cost estimators lacked the tools needed to generate accurate operating and
maintenance estimates. U.S. Government-owned and long-term leased facilities
overseas include more than17,000 properties, valued at more than $14 billion. These
properties must be adequately maintained. The Department received approximately
$100 million per year for maintenance and repair until FY 2008, when the budget
increased to approximately $150 million.

The 2010 Long-Range Overseas Maintenance Plan projects operations and main-
tenance costs over a 6-year cycle, using the Department’s adaptation of the U.S.
Department of Defense’s facility cost model. The first iteration of this model demon-
strated a $1,960 million discrepancy between the Department’s FY 2008 budget and
the model’s projections. The model’s levels of funding do not correspond to any of
the Department’s funding matrices. Thus, the model must be modified to make it
compatible with the Department’s funding structure and processes.

Compliance and CFR Findings
OBO completed a study that compared estimates of new embassies’ first-year build-
ing expenses to actual costs at six posts. OBO’s template for estimating costs lacked
detailed and post-specific data and did not account for exchange rates and utility.




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   23


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     The OIG CFR team noted that OBO is now incorporating cost data into estimates
     by using improved building operating expense accounting, new embassy components
     performance, and utility costs information that includes inflation and hours of operation.

     Recommendation 17 was closed.


     RECOMMENDATION 18: The Bureau of Overseas Buildings Operations should
     continue working to staff the Human Resources backlogs of personnel actions.
     (Action: OBO)


     RECOMMENDATION 19: The Bureau of Overseas Buildings Operations should
     continue working to staff the Human Resources office and ensure that all staff
     receives the training and resources required to perform their duties. (Action: OBO)

     OBO’s human resources office was understaffed and unable to provide adequate and
     timely help to managers.

     Compliance and CFR Findings
     The human resources office has implemented processes and procedures that include
     internal and external training, accountability checklists, briefings to senior manage-
     ment, monthly meetings with customers, and hiring contractors to help reduce the
     backlog of personnel actions and to correct deficiencies in records and databases.

     These efforts notwithstanding, the process to recruit and hire new employees remains
     slow and tedious. This difficulty is related in part to hiring requirements for Civil Service
     employees that include developing best-qualified lists, securing approvals from the U.S.
     Office of Personnel Management, finalizing interviews with applicants, and obtaining
     security clearances. Furthermore, when position descriptions and work requirements state-
     ments do not clearly define the position being filled, the person who is ultimately hired
     may not have the necessary skills. Key offices in OBO continue to have staffing gaps that
     the human resources office, also understaffed, has not been able to fill.

     Until all of the vacant human resources positions are filled, the hiring problems,
     though diminished, will continue. A high turnover rate among Civil Service employ-
     ees continues because they find higher-grade positions with greater potential for
     advancement elsewhere. The human resources office is reviewing all GS-12 positions
     and reclassifying some to the GS-13 level. New managers and contractors have access
     to improved records and databases. Mandatory training courses for OBO manag-
     ers and supervisors now include human resources processes and procedures, Equal
     Employment Opportunity and civil rights training, and conflict resolution.

     Recommendations 18 and 19 were closed.


24         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




RECOMMENDATION 20: The Bureau of Overseas Buildings should develop and
begin implementing a plan to review and rewrite for accuracy the position descrip-
tions of direct-hire staff. (Action: OBO)

Some position descriptions were out of date or inaccurate. In some cases, employees
with supervisory positions had no staff to supervise; in others, those without formal
supervisory duties supervised staff. Supervisory lines and responsibilities needed to be
clarified and codified.

Compliance and CFR Findings
With the assistance of contractors, OBO is reviewing, updating, and classifying,
if necessary, all position descriptions. Since the 2008 inspection, 408 Civil Service
position descriptions have been revised; 58 remain. For the Foreign Service, eight
domestic positions have been revised, and four remain. These revisions represent 26
position types.

Recommendation 20 was closed.


RECOMMENDATION 21: The Bureau of Overseas Buildings Operations should
put in place procedures to ensure that each direct hire employee has an accurate and
current performance appraisal on file. (Action: OBO)

Some employees complained about not receiving performance evaluations for periods
of 2 years or more. OBO did not have a tracking system to remind managers about
deadlines for performance evaluations.

Compliance and CFR Findings
The human resources office implemented a tracking system that produces reports on
overdue performance appraisals. Division directors receive this information monthly.
Supervisors have 30 days to input rating information into the Department’s ePerfor-
mance application. As a result of this tracking system, OBO’s managers and supervi-
sors are ranked third within the Department with regard to the timely completion of
performance evaluations.

In 2009, 464 Civil Service employee appraisals were completed in a timely manner.
For the Foreign Service rating cycle, all 126 were submitted on time. For the Senior
Foreign Service, five out of six were submitted on time.

Recommendation 21 was closed.




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   25


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     RECOMMENDATION 22: The Bureau of Overseas Buildings Operations should
     conduct a review of its procedures for using personal services contractors to ensure
     that relevant government policies are scrupulously followed so that the use of personal
     services contractors does not detract from the career development of direct hire
     employees. (Action: OBO)

     There were concerns about the role of personal services contractors and whether they
     were crossing the line into supervising direct-hire employees. Additionally, there were
     concerns that the large number of personal services contractors disadvantaged the
     direct-hire workforce. The intent for hiring personal services contractors is to acquire
     technical expertise that is not available among direct-hire employees.

     Compliance and CFR Findings
     The sensitivity among direct-hire employees regarding personal services contractors
     has been somewhat dispelled with the updated position descriptions and increased
     supervision of personal services contractors.

     Highly experienced former employees often find employment as personal services
     contractors. This is OBO’s way of ensuring that the necessary technical expertise is
     available. OBO has been attentive to ensuring that personal services contractors do
     not supervise or appear to supervise direct-hire employees. Direct-hire employees are
     also receiving training and work opportunities that indicate the importance OBO
     places on their career development.

     Recommendation 22 was closed.


     RECOMMENDATION 23: The Bureau of Overseas Buildings Operations should
     establish a mechanism for verifying that first-line managers ensure travel is necessary
     and create a system for ensuring that trips are coordinated. (Action: OBO)

     There were assertions that supervisors were allowing staff to travel without regard to
     the need for the trip, alternatives to travel, or cost.

     Compliance and CFR Findings
     In November 2008, OBO required first-line managers and supervisors to analyze
     travel requests to determine whether they were mission essential and could not be
     accomplished through videoconferencing or another means. Travelers were required
     to include the Office of Area Management on e-country clearance requests to ensure
     that trips were coordinated among OBO offices.

     OBO’s Travel Verification System, a SharePoint application, allows the Office of
     Area Management to see all travel requests and destinations. Consequently, Area

26         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



Management sees how many people are traveling to each destination at the same
time, as well as the purpose for the visit. Area Management verifies the requirement
and limits the travel, if necessary. The OIG CFR team verified that there are fewer
trips to individual posts and that visits are better coordinated among OBO offices.

Recommendation 23 was closed.


RECOMMENDATION 24: The Bureau of Overseas Buildings Operations should
require that the Construction and Commissioning division add a Value Added Tax
item to its monthly Project Director’s progress report and that the Project Evaluation
and Analysis division report Value Added Tax accomplishments at the monthly
program performance review. (Action: OBO)

The Diplomatic Tax Relief Initiative was established in October 2004 to ensure
that the Department is relieved of foreign tax obligations and to identify and collect
reimbursable taxes paid overseas. OIG’s 2006 audit of value-added-tax (VAT) collec-
tions overseas3 found that the Department was not consistently developing tax-relief
agreements with local governments before beginning construction projects overseas.
The Department developed policies and guidance for negotiating tax-relief agree-
ments and collections. Similarly, OBO developed appropriate policies for its construc-
tion program.

OBO did not have a reliable mechanism to track reimbursements. Consequently, the refund
tracking reports reflected in the monthly program performance review financial reports
were neither timely nor accurate, often with more than a 1-year gap between reports.

Compliance and CFR Findings
The Construction and Commissioning Division requires that all monthly project
director reports include the status of VAT payments and reimbursements for all active
projects. The division reports this information at the monthly program performance
reviews. OBO’s procedures ensure that the Construction and Commissioning
Division’s project directors include VAT data in their monthly progress reports and
show the accomplishments at the monthly program performance reviews. The CFR
inspectors reviewed the project directors’ monthly reports and found line items show-
ing the projects’ VAT accomplishments. OBO issues guidance on reporting VAT
activity and provides refresher training periodically. OBO has revised and updated
its VAT policies and procedures because problems encountered with VAT in the field
require OBO headquarters involvement.

Recommendation 24 was closed.

3
 OIG Audits Report No. FM-06-38, Audit of the Department’s Identification and Collection of Value-Added
Taxes (September 2006).



       OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   27


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     RECOMMENDATION 25: The Under Secretary for Management should estab-
     lish a formal process to ensure that the Bureau of Administration and the Bureau
     of Overseas Buildings Operations establish written time lines for the submission of
     FY 2009 and future technical requirements packages, along with target contract
     award dates; and, adjust contract award dates (into the next fiscal year if necessary)
     when technical requirements packages are submitted too late to conduct appropriate
     procurement procedures. (Action: M, in coordination with A and OBO)


     RECOMMENDATION 26: The Under Secretary for Management should ensure
     that the Bureau of Administration institutes procedures to monitor the timeliness
     and completeness of technical requirements packages; and, report back to the Under
     Secretary for Management and Bureau of Overseas Buildings Operation when pack-
     ages are late. (Action: M, in coordination with A)

     Contract awards granted on the last day of the fiscal year were not necessarily the
     most advantageous to the U.S. Government.

     Compliance and CFR Findings (Recommendation 25)
     OIG’s 2008 recommendations that focused on late proposals and rushed negotiations
     did not actually change the number of contracts awarded on September 30th each year.
     Thus, the service-level agreements outlined herein have not eliminated September 30th
     awards. Some factors that lead to delays in technical specifications reaching the Office
     of Acquisitions Management (AQM) are beyond OBO’s and AQM’s control, including
     unexpected host government decisions concerning land use.

     M/PRI worked with the Bureau of Administration’s Office of Logistics Management,
     Acquisition Division and OBO to review procurement processes and practices. A
     service-level agreement outlined specific project planning time lines for FY 2009 projects
     and any FY 2008 projects that were carried forward. The service-level agreement was
     signed in May 2009.

     AQM wants to receive OBO’s technical requirements approximately 120 days before
     contract award to put together and issue the RFP; to allow contractors 45 days to
     respond, review proposals, and determine the competitive range; and to conduct
     negotiations and award contracts.

     The service-level agreement has been used for all projects since May 2009, includ-
     ing those for 2010. It includes specific time lines for AQM and specifics for OBO in
     its planning and scheduling documents, FY 11 and FY 12 Summary NEC Schedule
     to Design-Build Award, and January and August Awards and Generic NEC Schedule
     Awards. Decisions for delaying projects to the next fiscal year are made in early spring.

     Recommendation 25 was closed.

28         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



Compliance and CFR Findings (Recommendation 26)
The service-level agreement requires the Under Secretary for Management’s oversight.
Using service-level agreements, AQM’s business plan facilitates discussion between
AQM and customers, including OBO. The service-level agreement also mandates
semiannual review meetings between the Bureau of Administration (A) and OBO.

The OIG CFR team learned that OBO and AQM will reevaluate the service-level
agreement before the end of 2010. Weekly meetings provide a forum to discuss
schedules, RFP delivery, contract award dates, and other issues that could affect proj-
ect schedules, scope, or budgets. OBO also uses project management tools to track
project progress. OBO and AQM members of senior staff meet quarterly to discuss
outstanding issues and determine reporting needs. The reasons for late packages
include obstacles over which OBO has no control. In one instance, a plan to renovate
an existing building and build a new chancery was changed because the existing
building could not be renovated properly. Technical specifications required extensive
modifications, and the award was delayed until 2011.

Recommendation 26 was closed.


RECOMMENDATION 27: The Under Secretary for Management should obtain
revised contract award dates for FY 2008 projects from the Bureau of Administration
that will allow for a proper acquisition process and then consider deferring appropri-
ate projects into the following fiscal year. (Action: M)

Compliance and CFR Findings
Three projects scheduled for FY 2008 were deferred until the following year:
Monrovia, Belgrade, and Taipei. This methodology continued in 2009, with the
postponement of Dakar, and in 2010, when Bishkek, Jakarta, and Port Moresby were
deferred to the following fiscal year.

Recommendation 27 was closed.


RECOMMENDATION 28: The Bureau of Overseas Buildings Operations
should review and revise performance measures related to providing the Bureau of
Administration request for proposal packages in a timely manner to ensure that
the measures use the initial Master Procurement Integration Schedule (or other
Acquisition Plan or service level agreement) that is coordinated with the Office of
Acquisitions Management as its performance benchmark and have clear thresholds
for delinquent reporting. (Action: OBO, in coordination with A)




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   29


                   SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



     Compliance and CFR Findings
     The re-alignment of OBO’s organizational structure changed the office responsible
     for developing and implementing the Master Procurement Integration Schedule. The
     office was using the initial Master Procurement Integration Schedule, which was
     coordinated with the Office of Acquisition Management, as its performance bench-
     mark. That schedule is no longer used.

     The Office of Project Development and Coordination is responsible for reviewing
     and revising performance measures and for ensuring the timely submission of RFP
     packages. Detailed schedules for key acquisition milestones are developed and OBO
     and AQM review the acquisition plan weekly. When OIG’s compliance requirements
     were met in July 2009, the executive office’s IR group also monitored progress to
     ensure that milestones were met. Thus, there was no need for delinquent report-
     ing. OBO uses several schedules to map projects from site acquisition, design, RFP
     development, RFP release, prebid conferences, negotiation, and award stages.

     OIG’s CFR closed similar recommendations4 that AQM and OBO should establish
     written time lines for technical requirements packages, negotiations, and awards and
     that AQM should institute procedures to monitor and enforce the timeliness and
     completeness of technical requirements packages, provide feedback to OBO, and take
     corrective action as necessary. The service-level agreement, signed in May 2009, met
     compliance requirements.

     Recommendation 28 was closed.


     RECOMMENDATION 29: The Bureau of Overseas Buildings Operations should
     ensure that the work commitments of employees who have responsibilities related to
     timely request for proposal packages address performance measures for which they
     are responsible. (Action: OBO)

     Staff and managers responsible for technical specifications and other requests for
     proposal elements were not always vigilant at moving the products to completion.

     Compliance and CFR Findings
     OBO provided two different position descriptions for Civil Service employees in
     the Office of Project Development and Coordination. Both represented managers
     and supervisors with responsibilities for ensuring the timely creation of technical
     specifications. The new position descriptions also contain detailed requirements for
     completing the work in a timely manner.

      OIG Report No. ISP-I-07-12, Inspection of Bureau of A/OPE, AQM and SDBU, dated December 2006, and
     4	

     OIG Report No. ISP-C-10-23, Compliance Follow-up Review of A/OPE/AQM/SDBU, dated February 2010.



30          OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                         SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



Managers and supervisors are held accountable for meeting time lines assigned in each
project. They receive performance ratings that reflect whether they have met these
requirements. However, it is not clear how performance ratings alone will affect project
outcomes and timely submissions. Furthermore, staffing shortages and hiring delays in
the Office of Project Development and Coordination have stalled some projects.

Recommendation 29 was closed.


RECOMMENDATION 30: The Bureau of Overseas Building Operations should
consolidate systems managing real property data, provide access to all stakeholders,
and assign accountability for data reporting to Single Real Property Managers at U.S.
overseas missions. (Action: OBO)


RECOMMENDATION 31: The Bureau of Overseas Buildings Operations should
reiterate to overseas missions that they provide the Bureau of Overseas Buildings
Operations with a complete accounting of all annual operating expenses to include all
lease costs and building operating expenses for long-term leased and government-owned
properties for inclusion in the annual Federal Real Property Profile. (Action: OBO)

OBO was using two different versions of the Real Property Application (RPA), one at
post and one domestically. Some data transfers from posts to headquarters were error
prone. Therefore, responses to requests for inventory, maintenance, repair, and other
information did not represent accurate data. These data are also used for mandatory
Federal Real Property Profile reporting.

Compliance and CFR Findings (Recommendation 30)
Information that posts enter into the post administrative software suite, including
real property application data, are now uploaded and integrated into BMIS daily.
Thus, stakeholders and OBO staff have an enterprise-wide view of real property data.
Responsibility for reporting has been assigned to the single real property managers
at overseas posts (State 00049728, dated 14 May 2010, Soliciting Attention and
Oversight of the Real Property Application Database).

BMIS, is constantly updated and reviewed. It consolidates real property data and
provides access to stakeholders. According to 15 FAM 113.3-1 and 15 FAM 113.3-
2, the single real property manager is the post authority on all real property issues
and serves as the post liaison with OBO. Responsibilities include ensuring that real
property records are current and accurate and that property information is submitted
to OBO’s RPA database. These responsibilities are ongoing. The OIG CFR team
confirmed that these requirements are being met.

Recommendation 30 was closed.


      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   31


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     Compliance and CFR Findings (Recommendation 31)
     OBO established an accurate baseline of all presently held properties. In September
     2009, OBO began to improve RPA data accuracy by using a program that corrected
     software that corrupted post-submitted long-term lease and U.S. Government-owned
     property data sent to headquarters and used for the Federal Real Property Profile. It
     also reviewed and corrected short-term lease data so that these data go directly into
     RPA and BMIS. The updated data transfer ensures that the information posts enter
     into RPA matches exactly what is in the OBO headquarters version of RPA and
     BMIS.

     May 2010 and October 2010 Department cables reiterate the importance of accu-
     rate RPA data. The May cable (State 0049728, dated May 14, 2010), Soliciting
     Attention and Oversight of the RPA Database, discusses how mistakes in RPA
     data may result in cuts to allotments and how OBO has focused on computer
     system improvements. OBO asked chiefs of mission to certify RPA data in annual
     management controls assurance statements to enable OBO to prepare the Office of
     Management and Budget’s required Federal Real Property Profile, the Long-Range
     Overseas Building and Maintenance Plans, and posts’ repair and improvement
     budgets.

     OBO’s FY 2011 Financial Guidance cable (State 104368, dated October 6, 2010)
     again states the importance of RPA data in making crucial funding decisions. In
     accordance with the President’s Management Agenda, OBO serves as the single real
     property manager, managing all overseas real estate.

     Recommendation 31 was closed.


     RECOMMENDATION 32: The Bureau of Overseas Buildings Operations should
     review those major rehabilitation projects where the project costs or repair needs costs
     far exceed the plant replacement values to determine if the repair needs costs and
     plant replacement values are accurate. If so, OBO should determine what alternatives
     to major rehabilitation projects (property disposal, build, and purchase or lease new
     property) should be implemented. (Action: OBO)


     RECOMMENDATION 33: The Bureau of Overseas Buildings Operations should
     establish clear and concise data collection and reporting criteria for the plant replace-
     ment value and the condition index elements. (Action: OBO)

     The 2008 inspection noted significant unmet maintenance and repair needs.
     OBO’s methodology for reporting the condition index (CI) of approximately 5,000




32         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



Department properties at 93.95 percent5 was questionable. Further, repair costs
exceeded the plant replacement value for rehabilitation projects identified in the 2008
Long-Range Overseas Maintenance Plan.

Compliance and CFR Findings (Recommendation 32)
In April 2008, OBO awarded a contract to develop and implement a facility index
tool that uses building systems and component data and compares these data to
industry standards to determine a CI for the structure. Further, the methodology
for calculating repair needs also changed. In 2007, repair needs were calculated by
determining the costs based on Federal Real Property Profile data. In 2008, the
age-based facility CI calculated repair needs by using other criteria. Age-based scal-
able modeling uses (1) the actual or estimated age of the building, construction date,
or last major renovation date; (2 ) the use type of the building (office, housing, or
warehouse); (3) the construction cost for each use; and (4) the estimated useful life of
each building component for each use type.

Recommendation 32 was closed.

Compliance and CFR Findings (Recommendation 33)
The methodology for identifying plant replacement values and deriving the CI
changed after the 2008 inspection. The evaluation process now uses more facility-
based information, thereby providing OBO with more accurate information. OIG’s
CFR team notes that, although the incorporation of more facility-based information
improves accuracy, acceptable results can also be achieved with basic age and use
data. However, the refinements OBO made to the procedure for calculating repair
needs should also result in more credible data.

Recommendation 33 was closed.


RECOMMENDATION 34: The Bureau of Overseas Buildings Operations should
raise the rental ceiling from $25,000 to the legal maximum of $50,000 in order to
significantly reduce the percentage of waivers requests. (Action: OBO)

The Foreign Service Buildings Act of 1926, (22 U.S.C. § 301), as amended, requires
the Secretary of State to approve waiver submissions for office or residential leases
that exceed space standards and are over $50,000 annually. OBO required a waiver
for residential leases in excess of $25,000. However, that ceiling was not practical,


5
  The CI is a general measure of a real property asset’s condition at a specific point in time, reported as a percent
on a scale from 0 to 100. The plant replacement value is defined as the cost of replacing an existing asset at
today’s standard repair cost (i.e., the amount necessary to ensure that the asset is restored as much as possible to
its originally intended use).



        OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   33


                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     and OBO’s response was not timely. Additionally, given that less than 15 percent of
     waiver requests are denied, the process was not efficient. The processing time for lease
     waivers often had a negative effect on posts’ ability to lease available housing that met
     Department standards.

     Compliance and CFR Findings (Recommendation 34)
     Public Law No. 89-636 (1966) required waiver requests for leased properties costing
     more than $25,000 annually; Public Law No. 102-138 (1991) increased the threshold to
     $50,000. The President’s Management Agenda requires OBO to provide market-appro-
     priate stewardship of its $500 million annual leasehold budget. Consequently, OBO
     established the Rental Benchmark Initiative (RBI) that allows posts to lease rightsized
     units under $50,000 without waivers. With a benchmark in place, OBO now quickly
     processes waiver requests over $50,000 and meets oversight requirements of the Office
     of Management and Budget (OMB) and Congress in a transparent, reportable manner.

     As of August 2009, more than 165 posts were participating in the RBI program.
     Quarterly performance evaluations were conducted throughout FYs 2008 and 2009.

     Recommendation 34 was closed.


     RECOMMENDATION 35: The Bureau of Overseas Buildings Operations should
     streamline its lease waiver clearance and approval process to provide posts with timely
     decisions on lease waiver requests. (Action: OBO)

     Compliance and CFR Findings (Recommendation 35)
     As of March 2009, posts participating in the RBI program must submit lease waivers
     to OBO via the electronic lease waiver request (eLWR) application. Over 240 posts
     currently use eLWR. It takes approximately 3 days to process waivers for leases less
     than $50,000 per year and 5 days for those greater than that amount. OBO expects
     the processing time to decrease once the eLWR application is in use at all posts. Only
     leases exceeding $50,000 per year are forwarded to the OBO director for approval.

     OBO was directed to raise the self-imposed rental ceiling from $25,000 to $50,000
     in order to reduce the number of waiver requests. OBO raised the limit to $50,000
     for posts participating in the RBI program. Posts not in the program still request
     waivers at the $25,000 ceiling.

     The OIG CFR team’s review of records and interviews with staff in the Office of
     Real Property Management confirmed that OBO has streamlined its lease waiver
     clearance and approval process and, with the use of eLWR, provides posts with
     timely decisions on lease waiver requests.

     Recommendation 35 was closed.


34         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




RECOMMENDATION 36: The Bureau of Overseas Buildings Operations should
score Rental Benchmarking Initiative performance in accordance with agreed upon
standards. (Action: OBO)


RECOMMENDATION 37: The Bureau of Overseas Buildings Operations should
implement remedial plans of action for posts that do not perform well under the
Rental Benchmarking Initiative. (Action: OBO)

The RBI was developed to provide more oversight for residential leases, reduce the
number of waiver requests for leases under $50,000, and realize cost savings by
establishing post-specific rental ranges. OBO reviews and rates posts’ performance
quarterly and provides an annual performance rating to determine posts’ continued
participation in the initiative.

Compliance and CFR Findings (Recommendation 36)
Posts were graded on their proficiency in managing leased property inventories in
accordance with FAM procedures and their overall success in meeting the following
RBI performance measures:
    •	 Leasing property within agreed upon rental benchmarks and 15 FAM 237
       space standards (5 points)
    •	 Maintaining current and accurate RPA data (2.5 points)
    •	 Submitting all required lease documentation (2.5 points)

Compliance and CFR Findings (Recommendation 37)
Real property managers work with posts regarding entry into the RBI program and
to ensure that leases are within the mutually agreed upon rental benchmarks. A cable
from Area Management outlines the remedial action plan that a post must take to
return to an acceptable level. The remediation process involves constant communi-
cation with post and mentoring and educating post management, particularly the
general services officer and others involved in managing the housing pool.

OMB requires posts to participate in the RBI program unless the post has fewer
than 10 short-term residential leases, has no commercial rental market, and/or has
a volatile political environment. Posts enrolled in the RBI program are authorized a
$50,000 rental level, whereas those posts not enrolled remain at $25,000 and must
request a waiver for anything exceeding that level. Under the RBI program, OBO
grants authority to posts if the lease cost falls within posts’ benchmark for the occu-
pant, the residence is within FAM space standards for the occupant, and the rental
cost is less than $50,000 annually.



      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   35


                   SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



     The RBI program has a green, yellow, red system that is based on the level of compli-
     ance.6 The OIG inspectors reviewed the latest RBI reports, which showed 14 yellow
     and 2 red ratings for FY 2010.

     Recommendations 36 and 37 were closed.


     RECOMMENDATION 38: The Bureau of Overseas Buildings Operations
     should provide closer oversight of build-to-lease projects to ensure that the intended
     outcomes meet posts’ stated needs and to preclude escalation of lease costs due to
     unnecessary project specifications or changes. (Action: OBO)


     RECOMMENDATION 39: The Bureau of Overseas Buildings Operations should
     provide posts with a clear accounting of the total lease costs (for the life of the lease)
     that posts are responsible for that include the base lease costs, fees, taxes, mainte-
     nance and other annual operating expenses for properties acquired under the Build-
     to-Lease Program. (Action: OBO)

     When OBO is unable to acquire properties that meet posts’ needs, comply with
     OMB requirements, and provide acceptable lease renewal and termination rights, the
     build-to-lease (BTL) option is an alternative. BTL is used primarily for residential
     housing, often in developing countries where there is no existing safe, secure, and
     functional housing. The BTL method leverages private sector capital; delivers faster
     services; and reduces the Department’s risk because the developer assumes the risk of
     land acquisition, construction quality, and property ownership. OBO does not accept
     the project until it is completed and it meets requirements. BTL projects are defined
     as lease transactions and are funded from OBO’s leasehold account.

     There are potential drawbacks to BTL projects. First, OBO was not overseeing these
     projects to ensure that they met posts’ needs. Second, changes could delay projects
     and escalate costs. Third, posts were unclear about whether OBO or they were
     responsible for maintenance, repair, and other expenses.

     Compliance and CFR Findings
     OBO staff visit BTL projects every 120 days, and OBO hires host country architec-
     tural and engineering firms to monitor projects. BTL design documents are subject
     to standard planning, development, and design reviews. Posts participate in the
     negotiation process with developers. Agreements with developers define operations


     6
      After 12 months and for each 12-month interval thereafter, OBO can extend a post’s authority for 1 year if it
     receives green scorecards for that year. A yellow score highlights areas needing improvement. Yellow scorecard
     posts work with their OBO real property managers to make improvements. A red scorecard results in OBO’s
     rescinding RBI authority.



36           OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                          SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



and maintenance elements to enable posts and bureaus to determine whether an
expense is an OBO, post, bureau, or DS cost. OBO reviews lease costs and operating
expenses during lease negotiations and prior to finalizing the lease.

OBO has regularized the BTL program. It sends an information package, including
a slide show, to posts where BTL projects are proposed. The package explains the
BTL method, process, and steps; clarifies the responsibilities of posts and OBO; and
lays out the decision-making process from the initial stage through occupation. In
addition, OBO provides the following documents to posts: a questionnaire, a sample
RFP, a sample proposal evaluation form, and a sample statement of work for hiring
a local firm to perform monitoring. Each year, there are approximately five BTL
projects in progress. At the time of the CFR review, there were three residential proj-
ects and one warehouse project under way. One residential project was nearing final
approval. Over the next five years, OBO anticipates an increase to approximately 10
BTL projects annually, with a focus on seismic and cyclonic vulnerabilities. OBO is
uncertain, however, whether it will have the resources to manage this higher number
of BTL projects.

Recommendations 38 and 39 were closed.


RECOMMENDATION 40: The Bureau of Overseas Buildings Operations should
develop standard operating procedures for its Information Management division
to include, at a minimum, information systems security officer responsibilities and
local Change Control Board procedures for hardware and software submission and
approval. (Action: OBO)

The 2008 inspection noted a need for standard operating procedures (SOPs). Although
existing SOPs included disposal procedures, IRM services and request processes, and
laptop configuration and management, they did not include information systems secu-
rity officer (ISSO) duties, or local change control board (CCB) procedures. Therefore,
ISSO duties were inadequately handled because they were not clearly defined and
documented. In addition, employees were purchasing their own equipment and tools
without prior approval and were hiding applications and tools to avoid losing them.

Compliance and CFR Findings
OBO reorganized the IRM division to include a program management branch that is
responsible for developing policy and operating procedures. In January 2009, OBO’s
SOPs included ISSO responsibilities and CCB procedures. OBO updated the CCB
SOP in July 2010. The documentation adequately details required procedures.

Recommendation 40 was closed.




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   37


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     RECOMMENDATION 41: The Bureau of Overseas Buildings Operations should
     consolidate all information technology resources for applications development and
     support into one budget within the Information Management division for their
     management and oversight. (Action: OBO)

     The IRM budget did not capture the full scope of resources necessary to meet the
     bureau’s IT requirements. When users felt their needs were not being met, they
     included their own IT requirements in budget submissions. These efforts resulted in
     decentralized IT acquisitions and the potential for duplication of effort and/or poorly
     spent financial resources.

     Compliance and CFR Findings
     OBO’s divisions identified requirements and reprogrammed money to IRM. The
     OIG CFR team verified that three applications had been moved, and another three
     were being moved to IRM, along with oversight responsibilities for contracts. Major
     development activities and associated contracts have been relocated to IRM, along
     with funding. Consolidating contracts in this way has enabled OBO to eliminate
     inappropriate contracting activities.

     Recommendation 41 was closed.


     RECOMMENDATION 42: The Bureau of Overseas Buildings Operations should
     review all existing software development contracts and ensure that requirements are
     clearly defined, sufficient supporting documentation for invoices and statements of
     work are present, and that the continuation of the contract is necessary. (Action: OBO)

     Irregularities in existing IT contract documentation, particularly associated with
     the BMIS and Project Information Database (PID) contracts needed attention. The
     BMIS statement of work was poorly defined and did not differentiate from other
     project management software that OBO was developing and using. PID contract
     documentation and invoices suggested that contracting officials were not providing
     sufficient contract oversight.

     Compliance and CFR Findings
     IRM project management staff has been included in the Federal Acquisition
     Certification for the project and program managers training continuum. OBO
     refined requirements for BMIS and awarded a new contract, which consolidated
     requirements previously dispersed among various contractors. IRM is ensuring
     correct contract oversight and has implemented invoice reviews. The contracting
     officer technical representatives meet with contractor project managers regularly to
     review billed hours and timesheets. OBO has implemented performance measures


38         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



within contracts to ensure that task requirements are met. Furthermore, PID
modules are being integrated into BMIS using a phased transition approach. Used by
several OBO offices, BMIS will be the source for all relevant construction documen-
tation and information.

Recommendation 42 is closed.


RECOMMENDATION 43: The Bureau of Overseas Buildings Operations should
implement and enforce a standard project management methodology to govern the
development of software applications within the bureau. (Action: OBO)

Because it did not follow sound project management principles, OBO had many
applications that did not meet users’ needs. Some applications were failures, ad hoc
solutions, duplicative, and not integrated into existing applications.

Compliance and CFR Findings
OBO established an Applications Support Management branch to plan, develop,
provide training for, and operate future applications. OBO has adopted the
Managing State Projects methodology to develop software applications, implemented
guidelines found in 5 FAM 620 and 5 FAH-5 H-200, and developed a standard
project plan template. The OIG CFR team verified these activities.

Recommendation 43 is closed.


RECOMMENDATION 44: The Bureau of Overseas Buildings Operations should
develop workflow documentation of their business processes and build all associated
data models and entity relationship diagrams to support further expenditures on
software solutions for managing bureau data. (Action: OBO)

OBO lacked well-defined models for business process workflows and the data they
generate. OBO did not know whether files in a shared network drive were official
records or whether an enterprise content management system was needed to manage
version control and other metadata associated with electronic files. Furthermore,
there was no comprehensive entity-relationship diagram to serve as a basis for data-
base work.

Compliance and CFR Findings
Reorganizing IRM operations was intended to ensure that business requirements
would drive development activities. In conjunction with the reorganization, IRM
instituted a new development approach, reinstituted its e-Gov board to review IT



      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   39


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     business cases, prioritized IT business needs, and provided feedback on progress.
     OBO also engaged a contractor to develop workflow processes and data model docu-
     mentation. The contractor provided reports in November 2009 and a supplemental
     appendix in January 2010. OBO also provided the OIG CFR team with documenta-
     tion regarding the requirements analysis it performed under its newly developed
     process for new projects.

     The CFR team reviewed the documentation and found that it fulfilled the intent of
     the recommendation. In addition, systems development staff indicated that they need
     to continue to develop their methodology, as it is a work in progress. Thus, OBO
     has continued to use the e-Gov board and working groups to explore and develop
     ways to integrate IT solutions in order to provide cost-effective solutions for business
     requirements.

     Recommendation 44 is closed.


     RECOMMENDATION 45: The Bureau of Overseas Buildings Operations should
     evaluate options and implement a Web site content management system. (Action: OBO)

     OBO’s Web sites needed improvement. Each division assigned a content manager to
     update Web site content. The process was tedious and inefficient, resulting in inac-
     curate site content from time to time. For example, incorrect information was posted
     due to compatibility issues and limited capabilities in the Web sites. This recommen-
     dation remained open prior to the CFR.

     Compliance and CFR Findings
     OBO now has a content Web site manager who meets with division webmasters to
     evaluate their Web site needs and to determine an appropriate platform. SharePoint
     has been selected as the platform for the bureau’s content management and Web
     hosting.

     The OIG team saw a demonstration of the SharePoint portal. It has a publishing
     environment to serve as the intranet Web site and a collaboration environment to
     facilitate information sharing. Content managers have been assigned within each
     division and are required to take training before gaining access rights to the site.

     Recommendation 45 is closed.




40         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



APPENDIX II – STATUS OF
2008 INSPECTION INFORMAL
RECOMMENDATIONS

Informal Recommendation 1: The Bureau of Overseas Buildings Operations should
consider developing only basic requirements for the Vertical Standard Embassy
Design using the design-bid-build method of delivery for these unique projects.
To overcome the 10-acre requirement for safe and secure compounds, which is not
feasible for urban locations, OBO attempted to develop a vertical standard embassy
design. Vertical designs were expected to vary widely; consequently, developing basic
requirements for vertical designs and using the design-bid-build methodology seemed
advisable.

CFR Findings
The standard embassy design concept, including a vertical standard embassy design,
has evolved. The vertical design concept was initiated to address unique needs of
small footprint/high-density embassies while meeting all security requirements.
Embassies in metropolitan areas of developed countries need not be all-inclusive
compounds. Embassy staff can use mass transit, health clubs, and eateries to avoid
building parking lots, recreational facilities, and cafeterias. The Design Excellence
Initiative integrates design and technology innovations while maintaining elements
of the standard embassy design in order to enhance the flexibility of urban embas-
sies. OBO determines the project delivery method (design-build or design-bid-build)
based on project requirements and country-specific circumstances.

Informal recommendation 1 is closed.


Informal Recommendation 2: The Bureau of Overseas Buildings Operations should
ensure that timekeepers are trained on the automated time and attendance system as
well as managers who must be familiar with the system and procedures to fulfill their
legal oversight responsibilities.
The OIG CFR team heard allegations of irregularities in tracking employee time and
attendance information.




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   41


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     CFR Findings
     OBO’s human resources management section provides timekeeping training for
     managers and supervisors. The training includes timekeeper and supervisor responsi-
     bilities for tracking time and attendance of OBO employees.

     Informal recommendation 2 is closed.


     Informal Recommendation 3: The Bureau of Overseas Buildings Operations should
     institute quarterly spot checks to ensure Project Executives have verified invoice
     information with Project Directors before approving invoices.

     Informal Recommendation 4: The Bureau of Overseas Buildings Operations should
     ensure that its process for certifying funds availability for field modifications is
     consistent with 4 FAM.

     Informal Recommendation 5: The Bureau of Overseas Buildings Operations should
     revise its field modification procedures to ensure prompt recording of transactions.
     The Office of Financial Management’s internal controls over field changes made by
     warranted contracting officer representatives were weak.

     CFR Findings
     OBO’s Office of Financial Management improved internal controls in the following
     areas:
        1.	 Project Authorization Documents: OBO now requires senior-level approval
            for certain additional projects. It has also eliminated exceptions that
            exempted certain types of projects from requiring an authorizing document
            and has streamlined the clearance process.
        2.	 Monthly Financial Reviews: OBO now requires budget analysts to provide
            detailed briefings on the status of funds for each of their programs or proj-
            ects. Analysts in accounts payable report on the number and dollar value
            of payments processed in each account and provide explanations for late
            payments.
        3.	 OBO’s acting director receives a report on late payments and associated inter-
            est penalties.
        4.	 OBO has implemented an automated invoice routing, approval, tracking, and
            archiving system in order to eliminate the risk of mishandling and misfiling.

     Informal recommendations 3, 4, and 5 are closed.


42         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 6: The Bureau of Overseas Buildings Operations should
review performance standards related to the accuracy of Independent Government
Estimates and Construction Working Estimates and develop a benchmark time line
for measuring and reporting on those standards.

Informal Recommendation 7: The Bureau of Overseas Buildings Operations should
develop a staff handbook of all standard forms and processes.

Informal Recommendation 8: The Bureau of Overseas Buildings Operations should
update the standard embassy design template for estimating costs.

Informal Recommendation 9: The Bureau of Overseas Buildings Operations should
determine whether an enterprise-wide version of a cost estimating system can be cost
effectively implemented to meet industry standards.
Independent government estimates, used to ensure that contractors’ proposals are
within the competitive range, were low. These estimates also inform budgets for
construction projects. When bids are higher than estimates, available funding may
be inadequate to accommodate planned awards. The cost management division
also develops current working estimates that include the estimated contract award
amount, salaries, and expenses for OBO staff overseas, contingency funds, etc. There
were pressures to hold costs to $100 million and to keep the estimate close to the
congressional budget.

When the division updated cost estimates, it checked only the elements it believed
had changed. Without a handbook, estimators could miss costs that other offices
include. Furthermore, estimates were not being shared among estimators. An enter-
prise-wide estimating system is standard in the construction industry.

CFR Findings
The cost division developed matrices that include independent government estimates,
current working estimates, and third-party contractor estimates. It also developed a
chart that compares estimated bids with benchmark time lines: strategic planning,
level 1; project development, levels 2 and 3; construction and commissioning, level 4;
and operations and maintenance, level 5. Each level indicates for whom the estimate
is produced, the data available, the source of cost, the contingency and escalation,
and the presumed accuracy of the estimate. A handbook has also been developed
via a contractor. The OIG CFR team found that AQM’s FY 2010 contract awards
were within 10 percent of the Office of Cost Management’s independent government
estimates.




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   43


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     IRM is developing an enterprise-wide system to facilitate estimate cost sharing. The
     new system will provide detailed consolidated estimates, without manual data entry;
     track costs electronically; allow monitoring and comparisons between independent
     government estimates and third-party contractor estimates; and facilitate variance
     queries and more accurate cost estimates. The system will also show trends and
     explain why bids may be higher or lower than the estimates. The software will be
     fully implemented by the end of January 2011.

     Informal recommendations 6, 7, 8, and 9 are closed.


     Informal Recommendation 10: The Bureau of Overseas Buildings Operations
     should arrange a refresher training session for all contract officer representatives and
     assistant contract officer representatives on their responsibilities in reviewing and
     approving contractors’ invoices.
     Fourteen people are scheduled for contracting officer training between November
     2010 and February 2011. The courses include PA 178, Contracting Officer Training
     (5 days), and PA 296, How To Be a Contracting Officer Representative (online).
     Forty-four contractors have completed training during the past year. Others are either
     current or will receive training at the appropriate time.

     Informal recommendation 10 is closed.


     Informal Recommendation 11: The Bureau of Overseas Buildings Operations
     should identify all designated contract officer representatives located domestically
     and ensure that they are cognizant of the scope and services that their contractors are
     performing and are in the best position to oversee these contractors.
     Some contracting officer representatives were not adequately trained. The financial
     system OBO used to track and route vouchers and invoices was replaced by a manual
     system. According to 14 FAH-2 H-517, contracting officer representatives must
     maintain working files that include copies of contractor invoices, a payment register
     indicating the remaining fund balance for the task order or contract, and other
     relevant documents.

     CFR Findings
     OBO identified the contracting officer representatives and developed a tracking
     procedure to ensure that they are trained to perform contractor oversight duties and
     are maintaining appropriate working files. The CFR team found no instances in
     which AQM failed to delegate responsibilities to contracting officer representatives.

     Informal recommendation 11 is closed.


44         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 12: The Bureau of Overseas Buildings Operations
should provide Congress, the Office of Management and Budget, and the tenant
agencies a more realistic forecast of how many new embassy compounds are likely to
be completed with $17.5 billion.
Increasing construction costs, dollar devaluations, and other factors indicated that
the Capital Security Cost Sharing Program’s (CSCSP) goal to complete 150 new
embassy compounds with a $17.5 billion budget would not be met. OBO’s November
2007 Overseas Facilities Costs Higher Than Expected document stated that costs had
increased dramatically since 2003 and that the annual 3.5 percent cost escalation rate
underrepresented construction and site acquisition costs. OIG could not determine
whether OBO had communicated to Congress, OMB, and tenant agencies the need
for more realistic cost escalation rates and the likely reduction in the number of
projects that could be completed.

Compliance and CFR Findings
OBO incorporated the 2007 document into its FY 2008 Long-Range Overseas
Building Plan. The plan goes to OMB and Congress and is issued to other agencies
and other U.S. Government entities.

Tenant agencies regularly attend CSCSP meetings, and OBO uses email to contact
agency attendees. OBO meets regularly with OMB and has raised the issue of rising
costs and OBO’s ability to meet the CSCSP goal of completing 150 new embassy
compounds in 14 years. In addition, each year, annexes and other projects are added
to the original CSCSP list, moving the 14-year time frame further into the future.
OBO has also shared this information with Congress, with the bureaus engaged
in the annual revision of the top 80 list, and during OBO’s regular meetings with
agencies.

Informal recommendation 12 is closed.


Informal Recommendation 13: The Bureau of Overseas Buildings Operations
should ensure that its plan for dealing with other agency funding shortfalls is equi-
table and transparent.
For FY 2008, some agencies were not able to fund their CSCSP obligations fully.
This resulted in a nearly $30 million shortfall. OMB instructed OBO to accom-
modate those agencies and allow them to pay the balance of their contributions the
following year. As a result, OBO planned to reduce the FY 2008 site acquisitions and
construction program from $1.266 billion to $1.237 billion.




      OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   45


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     Compliance and CFR Findings
     Where agencies owed funds, they were permitted to pay at the previous year’s rate
     and received the full amount of space they requested. Unpaid balances were paid
     within the fiscal year or early the following year.

     Agency funding shortfalls for the CSCSP are rare and have not occurred since the
     2008 inspection. If, in the future, an agency cannot pay its share, the issue will be
     deferred to OMB for resolution, in accordance with CSCSP procedures. In all cases
     to date, agencies did eventually pay the entire amount of their fair share; therefore, no
     inequities occurred. The interagency CSCSP process is transparent, with OBO shar-
     ing information and convening regular CSCSP meetings of agency representatives.

     Informal recommendation 13 is closed.


     Informal Recommendation 14: The Bureau of Overseas Buildings Operations
     should advise the Office of Policy, Rightsizing, and Innovation and the regional
     bureaus on how and when headquarters elements of other agencies should be given
     the opportunity to comment on new nominations to the top 80 list each year.
     Other agencies are tangentially involved in nominating facilities that will be built
     using CSCSP funding. Regional bureaus may nominate projects to be placed on the
     top 80 list; however, this list is derived essentially from security priorities.

     CFR Findings
     DS provides OBO with an annual security risk and vulnerability matrix for all
     overseas locations. These factors are used to compile the priorities for the Capital
     Security Construction Plan, also known as the top 80. To standardize the procedures
     and to eliminate subjective input, in 2004 DS and OBO adopted a software decision
     tool called Expert Choice©.

     The software ranks embassies and consulates according to threat levels of political
     violence and terrorism. It is weighted with other risk/vulnerability considerations
     that include chemical and biological attack, seismic and blast construction, build-
     ing construction and façade type (concrete, masonry/block, wood frame, and glass),
     and setback. Once the ranking order is established, the first 80 diplomatic facilities
     are slated for new construction or security upgrades within the next 15 years. The
     priority changes annually as new information is added and projects are completed.
     The Office of Policy, Rightsizing, and Innovation and the regional bureaus provide
     minimal input into the top 80.

     Informal recommendation 14 is closed.



46         OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



ABBREVIATIONS

A	                                   Bureau of Administration
BMIS	                                Building Management Information System
BTL	                                 build to lease
CA	                                  Bureau of Consular Affairs
CCB	                                 Change Control Board
CFR	                                 Compliance Follow-up Review
CI	                                  condition index
CSCSP	                               Capital Security Cost Sharing Program
DS	                                  Bureau of Diplomatic Security
FAH	                                 Foreign Affairs Handbook
FAM	                                 Foreign Affairs Manual
FSI	                                 Foreign Service Institute
IR	                                  internal review
IRM	                                 Bureau of Information Resource Management
IROR	                                Office of Internal Review and Operations Research
ISSO	                                information systems security officer
IT	                                  information technology
LE	                                  locally employed (staff)
M	                                   Under Secretary for Management
M/PRI	                               Management Rightsizing, Planning, and Innovation
OBO	                                 Bureau of Overseas Buildings Operations
OIG	                                 Office of Inspector General
OMB	                                 Office of Management and Budget
OSPB	                                Overseas Standards Policy Board
PD	                                  project director
PID	                                 project information database



        OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011   47


                     SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



     RBI	                                Rental Benchmark Initiative
     RFP	                                request for proposal
     RPA	                                Real Property Application
     SOP	                                standard operating procedures
     VAT	                                value-added tax




48          OIG Report No. ISP-C-11-26 - Compliance Follow-up Review of the Bureau of Overseas Buildings Operations - May 2011


                         SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE
OR MISMANAGEMENT
 of Federal programs hurts everyone.



           Contact the
   Office of Inspector General

         HOTLINE
to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General
       U.S. Department of State
            P. O. Box 9778
         Arlington, VA 22219


     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED
